   Review of Incident Handling and Reporting at the Railroad Retirement Board 

                        Report No. 06-09, August 24, 2006 


                                    INTRODUCTION 


This report presents the results of the Office of Inspector General’s (OIG) review of
computer incident handling and reporting at the Railroad Retirement Board (RRB). A
computer incident is a violation, or imminent threat of violation, of computer security
policies, acceptable use policies, or standard computer security practices.

Background

The RRB administers the retirement/survivor and unemployment/sickness insurance
benefit programs for railroad workers and their families under the Railroad Retirement
and Railroad Unemployment Insurance Acts. These programs provide income
protection during old age and in the event of disability, death, temporary unemployment
or sickness. The RRB paid over $9.2 billion in benefits during fiscal year (FY) 2005.

The RRB’s information system environment consists of two general support systems:
the mainframe computer, and the end-user computing system which supports the
RRB’s local and wide-area networks including the computer security incident capability
program. The RRB has experienced relatively few computer incidents that successfully
penetrated agency defenses during FYs 2005 and 2006 with usually no more than 30
isolated incidents in any one month. During that period, only one major incident had
widespread impact within the agency.

This review was conducted pursuant to the E-Government Act of 2002 (P.L. 107-347),
Title III, the Federal Information Security Management Act of 2002 (FISMA). FISMA
mandates that the National Institute of Standards and Technology (NIST) develop
standards and guidance, including minimum requirements, for the security of agency
information and information systems. FISMA also established a Federal information
security incident center, headed by the Department of Homeland Security’s Computer
Emergency Readiness Team (US-CERT), to compile and analyze security incidents and
provide assistance to Federal agencies on current or potential information security
threats and vulnerabilities. US-CERT has issued an official taxonomy which defines the
incident and event categories and reporting timeframes for Federal agency reporting.
The US-CERT Taxonomy is included as Appendix I to this report.

FISMA mandates that agencies develop, document, and implement an agency-wide
information security program that includes procedures for detecting, reporting, and
responding to security incidents. Additionally, FISMA requires the OIG to conduct an
annual evaluation of the information security, including incident handling and reporting.

The RRB has developed policies and procedures to protect the information system
environment, including communication networks and data, from unauthorized use,
misuse, or abuse by both internal and external threats. The RRB Computer Security
Incident Response Plan (CSIRP) procedures include incident handling and reporting
and the establishment of a Computer Emergency Response Team (CERT) comprised
of Bureau of Information Services (BIS) employees. Each RRB CERT member has
been assigned various roles and responsibilities for incident handling and reporting. A
synopsis of each member’s roles and responsibilities is presented in Appendix II.

The RRB CERT manages computer security incidents as they occur. Computer
security incidents can be identified in a number of ways. If a user detects unusual
activity, he will report it to the Help Desk. Additionally, RRB CERT members are
responsible for reviewing agency logs for suspicious activity. The logs may be
produced by the operating system, access control software, antivirus software, data
communication devices, or the intrusion detection system. After the RRB CERT
member confirms the existence of a computer security incident, they respond by
containing and eradicating the threat, and restoring the system if necessary.

The RRB CERT member responding to the incident is required to maintain
documentation that may consist of the logs identified above, or forensically sound and
legally admissible evidence for more serious incidents. Additionally, the lead
investigator maintains a separate RRB CERT log of incidents by assigning a unique
case number and details about the incident. This log is used to compile incident reports
internally for RRB management, and externally for the US-CERT.

The RRB CERT continually works to improve the RRB’s computer security
infrastructure. They have reported several initiatives which they believe will enhance
the RRB’s computer security incident capability. These initiatives include an intrusion
prevention system, policy enforcement software, and new help desk and spam
prevention software. Additionally, they reported the completion of a special project to
ensure all desktops have been fully patched to allow for more efficient distribution of
future desktop upgrades and virus definition files.

A glossary of technical terms is included at Appendix III.

Objective, Scope and Methodology

The objectives of this review were to:

   1. Determine whether the RRB’s incident handling and reporting program is
      operating effectively to ensure the confidentiality, integrity and availability of the
      RRB’s information and information technology.

   2. Determine whether the RRB’s program meets the standards and guidelines
      established by the US-CERT for external reporting.

To accomplish these objectives, we:

    •   interviewed responsible management and staff;
    •	 obtained and reviewed the RRB’s policies and procedures for incident response
       and reporting;
    •	 obtained evidence of the RRB’s computer security incidents and actions taken
       during FYs 2005 and 2006, including, but not limited to, logs, correspondence,
       and internal and external reports;
    •	 obtained and reviewed NIST criteria for incident handling and minimum control
       requirements;
    •	 obtained and reviewed US-CERT criteria for incident reporting;
    •	 obtained and reviewed US-CERT compilations of reports made by the RRB;
    •	 performed comparative analysis of the RRB’s policies and procedures to the
       criteria established by NIST and US-CERT;
    •	 assessed the agency’s overall compliance with the applicable standards and
       guidance for incident response handling and reporting by comparing the RRB’s
       actual incidents and reports to the RRB, NIST and US-CERT criteria; and
    •	 obtained and reviewed the RRB’s Plan of Actions and Milestones for previously
       identified information security weaknesses.

The scope of our audit did not include program improvement initiatives reported by
management which were not completed prior to the start of fieldwork.

Our work was performed in accordance with generally accepted government auditing
standards as applicable to the objectives. Audit fieldwork was conducted at RRB
headquarters in Chicago, Illinois from January through May 2006.

                                       RESULTS OF REVIEW 


The RRB’s incident handling and reporting program is generally operating effectively in
ensuring the confidentiality, integrity and availability of the agency’s information and
information technology. However, the agency’s program does not fully comply with
standards and guidelines established by the US-CERT for external reporting, and we
observed areas in which the RRB’s program should be improved to ensure that the
agency’s risk has been minimized. The following deficiencies will be classified as
reportable conditions in our FY 2006 evaluation of information security.1

       • The RRB’s response plan is not always followed.
       • Malware incident prevention and handling needs improvement.

1
  A reportable condition exists when a security or management control weakness does not rise to the
level of a significant deficiency, yet is still important enough to be reported to internal management. A
significant deficiency is a weakness in an agency’s overall information system security program or
management control structure, or within one or more information systems, that significantly restricts the
capability of the agency to carry out its mission or compromises the security of its information, information
systems, personnel, or other resources, operations, or assets.
         •	 External reporting does not fully comply with US-CERT Requirements.
         •	 Internal reporting is incomplete.
         •	 The current patch management process is not fully effective in minimizing risk
            from known vulnerabilities.

In addition, we observed that the RRB’s formal plan of action and milestones for
program remediation does not include previously identified weaknesses in the incident
handling and reporting process.

Management has agreed to take the recommended corrective action. The full text of
the Bureau of Information Services response is included in this report as Appendix IV.

Computer Security Incident Response Plan (CSIRP) Is Not Always Followed

The RRB CSIRP provides the methodology to be used by the RRB CERT; yet, RRB
CERT members do not always follow CSIRP procedures. In some cases, RRB CERT
members were unaware of, or did not understand, all of their roles and responsibilities
listed in the CSIRP. Our review of the CSIRP and current practice showed
discrepancies in the following areas.

          •	 Some of the roles and responsibilities of the RRB CERT are not followed,
             including oversight of RRB CERT activities.
          •	 Documentation supporting all RRB CERT members’ actions is not completed
             by members outside of the BIS Risk Management Group, or consistently
             within the Risk Management Group.

FISMA requires agencies to develop “procedures for detecting, reporting, and
responding to security incidents.” NIST Special Publication (SP) 800-61 provides
guidance on the development of policies and procedures for incident response
capability.2 That guidance states that the operating procedures are the technical
processes, techniques, checklists, and forms used by the incident response team.
NIST requires the procedures to be comprehensive and detailed enough to ensure the
agency’s priorities are reflected in the response operations. Additionally, the
procedures should be tested and validated for accuracy and usefulness, and distributed
to all team members. Training is also to be provided to the team members, and incident
response documents can be used as an instructional tool for reinforcement.

The CSIRP was designed to represent best practices and the expected procedures of
the RRB CERT. However, the RRB CERT members have been given wide latitude in
the methodologies used to respond to and record incidents. The Chief Security Officer
has operational authority over the RRB CERT, but provides little or no oversight of RRB
CERT activities. We found that current practices of the RRB CERT members do not
always conform to the procedures within the CSIRP. Additionally, previous
management control reviews were insufficient to determine the effectiveness of the
2
    NIST SP 800-61, “Computer Security Incident Handling Guide,” January 2004.
incident response program. While revisions to the management control process are
currently underway, ongoing supervision and training is needed to ensure adherence to
the operating procedures.

The RRB incident response capability is impaired when employees do not perform their
expected roles and responsibilities. As a result, computer security incidents may not be
handled as effectively as they could be.

Recommendations:

We recommend that the Bureau of Information Services:

      1. 	 conduct training of the RRB CERT members’ roles and responsibilities; and

      2. 	 implement controls to ensure the continued adherence to, and usefulness of,
           the CSIRP procedures.

Management’s Response

The Bureau of Information Services concurs with the recommendations and will conduct
training of the RRB CERT members and implement controls to ensure continued
adherence to the CSIRP procedures.

Malware Incident Prevention and Handling Needs Improvement

Our review disclosed several inefficiencies in the RRB’s malware protection program,
including inconsistent antivirus software configuration settings and missing or
incomplete logs.

FISMA requires agencies to develop “procedures for detecting, reporting, and
responding to security incidents … including mitigating risks associated with such
incidents before substantial damage is done.” NIST SP 800-83 provides guidance on
malware incident prevention and handling.3 That guidance states that malware
prevention-related policy considerations should include “specifying which types of
preventive software (e.g., antivirus software, spyware detection, and removal utilities)
are required … and listing the high-level requirements for configuring and maintaining
the software (e.g., software update frequency, system scan scope and frequency).”

RRB management has not established a formal antivirus software configuration policy
which specifies the requirements for configuring and maintaining that software.
Discussions with RRB CERT members revealed that their assumption of how the
antivirus software is configured is inconsistent with the configurations displayed on the
antivirus logs. The lack of a formal configuration policy, and procedures for
documenting and approving deviations from that policy, can lead to ineffective practices.


3
    NIST SP 800-83, “Guide to Malware Incident Prevention and Handling,” November 2005.
We also noted that the antivirus software’s threat history logs were incomplete for two
months, and the RRB has been unable to produce the logs since January 2006. An
actual cause of the missing log entries is unverifiable; however, RRB management
believes problems with the software resulted in the missing data. The RRB has been
unable to produce the threat history logs for several months because they appointed a
new antivirus administrator who requires specialized training in the use and
management of the software. The RRB did not have a valid backup administrator with
this knowledge.

Threat history logs represent a primary source of information on RRB computer security
incidents. The inability to produce the threat history logs impacts the identification,
handling, and reporting of computer security incidents.

Recommendations:

We recommend that the Bureau of Information Services:

      3. 	 develop a formal antivirus configuration policy;
      4. 	 implement procedures for adequately documenting and approving deviations
           from that policy;
      5. 	 appoint a backup administrator for managing the antivirus software; and
      6. 	 provide adequate training to the new antivirus administrator and backup 

           administrator. 


Management’s Response

The Bureau of Information Services agrees with the recommendations. They will
develop a formal configuration policy and implement procedures for documenting
deviations from that policy. Additionally, the Bureau of Information Services will appoint
a backup administrator and provide training to the two network administrators
designated as Norton Anti Virus administrators.

External Reporting Does Not Fully Comply with US-CERT Requirements

The RRB’s reporting of computer security incidents to US-CERT needs improvement.
Our review disclosed that the RRB’s incident reports did not conform to US-CERT
reporting requirements, and were often incomplete. The most significant category of
inadequate reporting was for successful malicious code identified by antivirus software.

FISMA requires agencies to notify and consult with the Federal information security
incident center, US-CERT, regarding computer security incidents. The US-CERT has
issued guidance which defines the reporting categories and timeframes to be used by
Federal agencies.4 This guidance is designed to ensure a consistent means of
reporting and to provide a common platform to execute the US-CERT mission. US

4
    The US-CERT Taxonomy is included as Appendix I.
CERT requires that successful malicious code that could not be quarantined by antivirus
software be reported daily.

The RRB did not comply with the US-CERT reporting requirements because the lead
investigator responsible for preparing the reports made a conscious decision to deviate
from the guidance. He stated the criteria for daily reporting of isolated successful
malicious code is unreasonable, and has decided not to follow it. Instead, he has
chosen to report a compilation of these incidents on a monthly basis.

We also noted that the RRB’s monthly compilation reports made to US-CERT did not
include all instances of reportable security incidents. The lead investigator did not make
RRB CERT log entries for all reportable incidents. Often, log entries are only made
when he performs the CERT activity himself because he does not receive the
information from other CERT members in a timely manner. For example, he is notified
of isolated incidents involving malicious code identified by the antivirus software at the
end of the month, rather than when the incident occurred. BIS management has not
ensured an effective means of communicating and reporting successful malicious code
between team members.

Nonconforming and incomplete external reports made to US-CERT restricts their ability
to perform their mission. The Office of Management and Budget (OMB) has indicated in
its FY 2005 Report to Congress that “Less than full reporting hampers the government’s
ability to know whether an incident is isolated at one agency or is part of a larger event,
e.g., the widespread propagation of an Internet worm.”5

Recommendations:

We recommend that the Bureau of Information Services:

    7. 	 implement controls to ensure incident reports released to US-CERT are 

         complete, accurate, and conform to US-CERT requirements; and 

    8. 	 implement a system to track and communicate all incidents, including
         successful malicious code identified by the antivirus software, from discovery to
         completion and final reporting.

Management’s Response

The Bureau of Information Services generally concurs with the findings and has agreed
to implement controls to ensure complete and accurate incident reports released to
US-CERT. However, the Bureau of Information Services is not currently prepared to
ensure those reports fully conform to US-CERT requirements. They have agreed to
resolve the reporting issues associated with the antivirus software, and to provide for a
link between the antivirus administrator and help desk ticketing software to provide
timely and documented antivirus responses. When the link is established, the antivirus

5
 “FY 2005 Report to Congress on Implementation of The Federal Information Security Management Act
of 2002,” March 1, 2006.
administrator will be responsible for ensuring the reports are made in conformance to
US-CERT requirements.

Internal Computer Security Incident Reporting Is Incomplete

Reporting of computer security incidents to RRB management needs improvement. 

Our review disclosed discrepancies between incident records and incident reports made 

internally to RRB management, as well as delays in the reporting process. 


FISMA requires agencies to implement a computer security incident response program 

that includes incident reporting. The RRB CERT is responsible for issuing a formal 

report of major incidents to RRB management. Additionally, the RRB CERT reports the 

number of incidents in the monthly BIS Administrative Report. The current incident 

categories reported are: 


   •   RRB CERT cases opened;
   •   phishing attempts;
   •   spam emails;
   •   successful malicious code; and
   •   intrusion detection system events on the public-facing web server.

We found that the monthly BIS Administrative Reports did not include all instances of
malicious code. For example, our interviews with BIS staff disclosed that the most
prevalent security incident experienced by the RRB is spyware. However, there is no
separate category for reporting spyware, and spyware that has not been detected by
the antivirus software is not included in the compilation of successful malicious code.

We also noted that RRB CERT log entries were not made, nor adequate documentation
retained, for all spyware incidents. Of the eight CERT log entries made during the
months of October through December 2005, five were for malicious code, four of which
involved spyware. Only two of the four spyware cases have adequate supporting
documentation. We also noted that log entries for other types of incidents contained
inaccurate data when compared with CERT case documentation.

Additionally, our review of the three months of antivirus logs that were available in FY
2006 showed that the number of computers infected in October had been miscounted.
The BIS Administrative Report over-reported the number of infected systems by four.
Antivirus logs are made available to the RRB CERT member responsible for preparing
the incident reports at the end of each month. Due to the volume of entries on the log
(both successful and unsuccessful malicious code), errors in counts can easily be
made.

The RRB’s major incident in August 2005 required the preparation of a formal report for
RRB management. However, as of March 2006, that report has not yet been issued.
We were told that the RRB CERT made several recommendations to BIS management,
and are awaiting a decision on those recommendations. They have chosen to wait
until the decisions are made before issuing the final report to RRB management.
As previously noted, the Chief Security Officer has operational authority over the RRB
CERT, but provides little or no oversight of RRB CERT activities. Inaccurate,
incomplete, or delayed internal reporting prevents RRB management from adequately
assessing the risk involved in RRB programs. Likewise, untimely reports lose their
effectiveness in notifying higher levels of management of the status and issues
involved.

Recommendations:

We recommend that the Bureau of Information Services:

      9. 	 implement controls to ensure internal reports of incidents are accurate and
           complete; and
      10. 	 issue reports of major incidents to RRB management as soon as the nature of
            the incident is known, rather than when recommendations for future actions are
            implemented.

Management’s Response

The Bureau of Information Services concurs with the recommendations and will adopt
controls specified in NIST SP-800-53. Additionally, the Bureau of Information Services
agrees to revise their procedures to have final incident reports available to the CIO
within 60 days of incident closure.

Current Patch Management Process Is Not Fully Effective In Minimizing Risk

RRB systems continue to be at risk for major security incidents. The OIG has reported
numerous times, dating back to July 2001, that the RRB did not have security patches
and updated service packs installed on their servers. RRB patch installations on
network servers are generally performed manually over multiple weeks, with automated
desktop patches installed thereafter.

NIST Federal Information Processing Standards Publication 200 establishes the NIST
SP 800-53 as the “Minimum Security Requirements for Federal Information and
Information Systems” effective March 9, 2006.6 Federal agencies must be in
compliance with these standards by March 9, 2007. NIST SP 800-53 requires Federal
agencies to identify, report, and correct information system flaws by promptly installing
newly released security relevant patches, service packs and hot fixes, and testing
software for effectiveness and potential side effects on the agency’s information
systems before installation.

NIST SP 800-53 also requires agencies to develop, disseminate, and periodically
review and update formal, documented system and information integrity policies and
procedures that address the control area of which flaw remediation is included.


6
    NIST SP 800-53, “Recommended Security Controls for Federal Information Systems,” February 2005.
The RRB management has not adopted formal patch management policy and
procedures that ensure patches are installed quickly and effectively. Microsoft
Corporation releases patches on the second Tuesday of each month, and gives
customers advance notice on the Thursday before the patch is released. This notice
includes the products that will be patched and the severity of the vulnerabilities
associated with the patch. Recent trends show that hackers take advantage of newly
disclosed software flaws which compel organizations to implement better processes for
testing and installing patches quickly and effectively.

For example, in August 2005, the RRB experienced a major computer security incident
with widespread agency impact. The Microsoft patch for that vulnerability was released
on August 9, 2005. The RRB’s infection occurred during the week of August 14, 2005.
Agency antivirus logs indicate that the security incident which first occurred in August
was still affecting the RRB’s information systems the following November. Yet, other
Federal agencies claim to have experienced little, if any, impact on their networks
because they tested and implemented the patch from Microsoft in less than three days.

While patch installation is no guarantee that a security incident will not occur, a properly
designed, effective patch management program should reduce the risks associated with
identified vulnerabilities. Timeliness is a key part of an effective patch management
program.

The BIS Network Services Group developed the procedures it currently follows after the
August 2005 incident: an undocumented, informal, patch management process based
on “increased awareness.” However, over time, informal procedures can degrade due
to resource constraints and complacency when the original emergency has passed.

The BIS Risk Management Group has drafted a patch management policy which
delineates, on a priority basis, the devices and timing for patch management. This plan
allows up to 30 days for completion of action on some patches, depending on the
assigned priority. No decision has been made regarding whether to adopt this, or a
more aggressive policy.

A faster, smoother method of installing patches throughout the RRB should be
implemented, utilizing a checklist to ensure all affected systems are appropriately
patched. Documentation of the patch installation should be maintained to support
verification of patch completions.

Recommendation:

   11. 	 We recommend that the Bureau of Information Services develop and
         implement a formal policy and procedure addressing patch management.

Management’s Response

The Bureau of Information Services has agreed to develop and implement a formal
patch management policy and procedure.
Known Weaknesses Are Not Included in the RRB’s Plan of Action and Milestones

The agency’s Plan of Action and Milestones (POAM) does not include previously
identified weaknesses in the RRB computer security incident response program.

FISMA requires Federal agencies to maintain a process for planning, implementing,
evaluating, and documenting remedial action to address any deficiencies in the
information security, policies, procedures, and practices of the agency. The OMB
requires agencies to prepare an agency wide POAM incorporating all known information
security weaknesses associated with information systems used or operated by the
agency, a contractor of the agency, or any other organization on behalf of the agency.
OMB also requires the agency to prepare quarterly updates of the progress in
implementing remedial actions and identifying problems, and an OIG evaluation of the
POAM process.

In our FY 2005 FISMA report, we stated that the RRB’s POAM was not comprehensive
with respect to identified weaknesses, and not driven by internal risk assessments and
control evaluations. We also reported that the existing plan did not demonstrate
prioritization of agency plans and efforts to correct information security weaknesses.
We recommended that the agency improve its remedial action process to ensure all
security weaknesses are included in the POAM and ensure that the plan demonstrates
the prioritization of agency remediation efforts.7

During our FY 2005 FISMA review, we also identified weaknesses in the agency’s
procedures for incident response handling and reporting. These weaknesses were
conveyed to RRB management through the OIG’s OMB FISMA Template Report issued
on October 5, 2005. As of May 31, 2006, the RRB had released two quarterly updates
of its POAM, neither of which reflects the weakness we identified in the OMB FISMA
Template Report. Prioritization of remedial actions and an adequate assessment of risk
cannot be achieved without inclusion of all security weaknesses.

This finding will be considered when we evaluate the RRB’s remedial action process as
part of the OIG’s FY 2006 FISMA evaluation and reporting process.

Agency action to implement prior OIG recommendations for corrective action is
pending; the OIG has no additional recommendations to offer at this time.




7
 “Fiscal Year 2005 Evaluation of Information Security at the Railroad Retirement Board,” OIG Report No.
05-11, September 28, 2005.
                                                                                                APPENDIX I
                          US-CERT Federal Agency Reporting Taxonomy
                              Federal Agency Incident Categories

 CATEGORY              NAME                       DESCRIPTION                 REPORTING TIMEFRAME
CAT 0           Exercise/Network       This category is used during           Not Applicable; this
                Defense Testing        state, federal, national,              category is for each
                                       international exercises and            agency’s internal use
                                       approved activity testing of           during exercises.
                                       internal/external network
                                       defenses or responses.
CAT 1           Unauthorized           In this category an individual         Within one (1) hour of
                Access*                gains logical or physical access       discovery/detection.
                                       without permission to a federal
                                       agency network, system,
                                       application, data, or other
                                       resource.
CAT 2           Denial of Service      An attack that successfully            Within two (2) hours of
                (DoS)*                 prevents or impairs the normal         discovery/detection if the
                                       authorized functionality of            successful attack is still
                                       networks, systems or applications      ongoing and the agency is
                                       by exhausting resources. This          unable to successfully
                                       activity includes being the victim     mitigate activity.
                                       or participating in the DoS.
CAT 3           Malicious Code*        Successful installation of             Daily.
                                       malicious software (i.e., virus,
                                       worm, spyware, bots, Trojan            Note: Within one (1) hour
                                       horse, or other code-based             of discovery/detection if
                                       malicious entity that infects or       widespread across agency.
                                       affects an operating system or
                                       application. Agencies are NOT
                                       required to report malicious logic
                                       that has been successfully
                                       quarantined by antivirus software.
CAT 4           Improper Usage*        A person violates acceptable           Weekly
                                       computing use policies.
*Defined by NIST Special Publication 800-61

                                   Federal Agency Event Categories

 CATEGORY             NAME                       DESCRIPTION                  REPORTING TIMEFRAME
CAT 5           Scans/Probes/          This category includes an activity     Monthly.
                Attempted Access       that seeks to access or identify a
                                       federal agency computer, open          Note: If system is
                                       ports, protocols, service, or any      classified, report within one
                                       combination for later exploit. This    (1) hour of discovery.
                                       activity does not directly result in
                                       a compromise or denial of
                                       service.
CAT 6           Investigation          Unconfirmed incidents that are         Not Applicable; this
                                       potentially malicious or               category is for each
                                       anomalous activity deemed by the       agency’s use to categorize
                                       reporting entity to warrant further    a potential incident that is
                                       review.                                currently being
                                                                              investigated.

The US-CERT Taxonomy as published on the US-CERT website: www.us-cert.gov.
                                                                                      APPENDIX II
                   RRB CERT MEMBER’S ROLES AND RESPONSIBILITIES


Chief Information Officer (CIO)

The CIO is delegated operational responsibility for the protection of the RRB information resources
and shall approve CERT membership as recommended by the Chief Security Officer (CSO). CIO
responsibilities include:
   •	 decision authority to disconnect or turn off mission critical systems ;
   •	 ensuring the CERT is properly staffed and equipped to perform its functions;
   •	 ensuring an appropriate level of protection for all RRB information resources; and
   •	 ensuring appropriate measures are in place to protect RRB information technology assets.

Chief of Information Resources Management

The Chief of Information Resources Management is the senior management representative for the
CERT and coordinates and assists in resolving any incident response issues with other senior
managers in the RRB, including escalating issues to the CIO for action if required. The Information
Resources Management Center includes the Risk Management Group. The Risk Management
Group, headed by the CSO, is responsible for providing a standard, systematic, enterprise-wide
process for risk management.

Chief Security Officer

The CSO has operational authority over the CERT and coordinates with managers including the
CIO and Chief of Information Resources Management. CSO responsibilities include:
    •	 ensuring the RRB policy and procedures conform to the requirements of Federal laws and
       regulations;
    •	 promulgates additional policy and procedures as necessary to provide for adequate
       computer security;
    •	 recommends CERT members to the CIO for approval;
    •	 translates technical details of incidents into business impact statements for the benefit of
       senior, non-technical management;
    •	 advises the CIO of the potential impact an incident could have on business operations;
    •	 ensures that a computer security incident reporting systems is developed, implemented,
       monitored and evaluated;
    •	 evaluates and activates the CERT on suspected security intrusion, incidents or violations
       reported from the BIS Customer Services Support Group; and
    •	 recommends corrective measures and solutions to prevent or resolve computer security
       related incidents.

Lead Investigator (LI)

The LI is authorized by the CIO to lead the CERT in conducting authorized computer incident
investigations. The LI is normally a member of the CSO’s staff unless criminal involvement is
suspected or discovered, in which case the Office of Inspector General’s Office of Investigations
assumes responsibility. The LI, in cooperation with the CERT, is responsible for responding to
suspected or actual incidents in a timely manner. The LI may need to perform highly complex
tasks, and is expected to have a high level of technical expertise. The LI undergoes
comprehensive training in the tools and techniques of incident response and computer forensics.
LI responsibilities include:
    •	 managing and directing the incident response team, including periodic training;
    •	 serving as a link between management and the incident response team;
    •	 informing the CSO of CERT actions;
                                                                                       APPENDIX II
                    RRB CERT MEMBER’S ROLES AND RESPONSIBILITIES


   •	   submitting incident reports, both internally and externally;
   •	   maintaining the Computer Security Incident Response Plan procedures;
   •	   selecting and using incident response tools, including a separate forensics workstation; and
   •	   installing, configuring, and using the RRB intrusion detection/prevention tools.

Network Engineer (NE)

The NE plays a pivotal role on the CERT by assisting the LI with specific tasks, including collecting
detailed data about the state of an affected system when an incident occurs. Often, the NE is
involved at the earliest stages of an incident and may be the first person to detect when an incident
occurs. The NE is a staff member of the Network Services Group and is responsible for:
    •	 ensuring that RRB system security conform to best practices;
    •	 securing RRB systems to prevent intrusions and unauthorized access;
    •	 ensuring all RRB general support systems are secured and patched in accordance with
        RRB policy;
    •	 generating and collecting detailed audit logs as prescribed by the LI;
    •	 monitoring and validating user account activity;
    •	 configuring system security settings in accordance with RRB policy; and
    •	 performing administrative functions on key infrastructure components such as domain
        name systems, network attached storage, email, web, and antivirus servers.

Data Communications Engineer (DCE)

The DCE plays a significant role on the CERT by ensuring that the network devices (routers,
switches, firewalls, and virtual private network implementations) are secured. The DCE may be the
first person to recognize a potential incident requiring further investigation. The DCE is a staff
member of the Network Services Group and is responsible for:

   •	 configuring network devices to ensure appropriate level of protection;
   •	 securing the RRB internetworking systems to prevent intrusions and unauthorized accesses
      according to best practices of the profession;
   •	 ensuring all RRB network devices are secured and patched in accordance with RRB policy;
   •	 enabling and configuring logging on critical network devices;
   •	 generating and collecting detailed audit logs as prescribed by the LI;
   •	 monitoring network activity for anomalous or suspicious activity; and
   •	 coordinating with providers as required by Service Level Agreements.

Customer and Desktop Support Services Groups (CSSG/DSSG)

The CSSG/DSSG, within the Network Services Group, is the primary point of contact for all user
initiated computer security incident reporting. They are responsible for manning the RRB’s Help
Desk functions and ensuring individual workstations have been secured and patched in
accordance with RRB policy. Upon recognition of an incident, the CSSG/DSSG will determine
whether the affected system poses a significant security threat to the agency, and if so, takes
appropriate actions to isolate the affected system(s).
                                                                                       APPENDIX II
                   RRB CERT MEMBER’S ROLES AND RESPONSIBILITIES


System Security Specialist (SSS)

The SSS is responsible for all user related account functions and permissions for both the
mainframe and end user computing systems. The SSS is likely the first person to notice
questionable user account activity during routine auditing functions. Other indicators of a computer
security incident involving the SSS are forwarded by a user who notices a problem with their
account. The SSS is also responsible for the internet web filtering application and may detect
incidents involving unauthorized employee internet activity. The SSS is a staff member of the
Network Services Group.

Mainframe Computer Supervisor and Staff (MCSS)

The MCSS is the primary technical point of contact for all mainframe related security issues. Their
expertise and support is critical in determining if the mainframe or data has been compromised
during a computer security incident, specifically in those incidents when the mainframe is
suspected of being the primary target. The mainframe system is the RRB’s principal and critical
line of business system.

Database Administrator (DA)

The DA is the primary technical point of contact for all database related issues, regardless of what
platform the data resides on (mainframe or end-user computing). The DA has the technical
expertise to help identify if an RRB database has been compromised, and if so, can provide a
damage assessment and recommended corrective actions.

Web Administrator (WA)

The WA is responsible for all internet and intranet applications and proper hosting and access to
RRB websites, both internal and external. The WA provides the coordination linkage with the E-
Government developers, as well as with the contracted web hosting vendor.

Various Intra-agency Line-of-Business Staff

Each major application has been appointed an Information System Security Officer and Line of
Business manager who are responsible for providing technical and business impact support to the
CERT effort as needed.
                                                                                            APPENDIX III 

                                              GLOSSARY



Antivirus Software: A program that monitors a computer or network to identify all major types of
malware and prevent or contain malware incidents.

Firewall: A program that protects a computer or network from other networks by limiting and
monitoring network communications.

Hot fix: Microsoft’s term for a security patch.

Intrusion Detection System (IDS): Software that looks for suspicious activity and alerts
administrators.

Intrusion Prevention System: A program that performs packet sniffing and analyzes network
traffic to identify and stop suspicious activity. Intrusion Prevention Systems may also be host-
based.

Malicious code: A virus, worm, Trojan horse, or other code-based entity that infects a host.

Malware: A program that is inserted into a system, usually covertly, with the intent of
compromising the confidentiality, integrity, or availability of the victim’s data, applications, or
operating system or of otherwise annoying or disrupting the victim.

Patch: An additional piece of code developed to address a problem in an existing piece of
software.

Patch Management: The process of acquiring, testing, and distributing patches to the appropriate
administrators and users throughout the organization.

Phishing: Tricking individuals into disclosing sensitive personal information through deceptive
computer-based means.

Quarantining: Storing files containing malware in isolation for future disinfection or examination.

Router: A hardware device that allows data to be exchanged between networks. Routers are
similar to bridges, but provide additional functionality, such as the ability to filter messages and
forward them to different places based on various criteria.

Service pack: A method for conveniently bundling existing updates for a product. The bundle
contains new features and enhancements in order to improve security, reliability and to improve
administration.

Spam: To indiscriminately send unsolicited, unwanted, irrelevant, or inappropriate messages,
especially commercial advertising in mass quantities. Noun: electronic "junk mail".

Spyware: Stand-alone programs that can secretly monitor system activity and detect passwords
and other confidential information and relay it back to another computer.

Switch: In networks, a device that filters and forwards packets between LAN segments. Switches
support any packet protocol.

Threat: Any circumstance or event, deliberate or unintentional, with the potential for causing harm
to a system.
                                                                                          APPENDIX III 

                                             GLOSSARY



Trojan horse: A nonself-replicating program that seems to have a useful purpose, but in reality
has a different, malicious purpose.

Virus: A program designed with malicious intent that has the ability to spread to multiple
computers or programs. Most viruses have a trigger mechanism that defines the conditions under
which it will spread and deliver a malicious payload of some type. Some viruses specifically
damage data by corrupting programs, deleting files, or reformatting disks.

Virus Definition Files: Files that contain sample code for thousands of threats. When antivirus
software scans a computer, it attempts to find matches between the computer’s files and the
sample code inside the virus definition file. When a match is found, it is an indication that the file
has been infected.

VPN (Virtual Private Network): A network where packets that are internal to a private network
pass across a public network. In a secure VPN, traffic is encrypted, integrity protected and
encapsulated into new packets that are sent across the Internet.

Vulnerability: A weakness in a system, application, or network that is subject to exploitation or
misuse.

Worm: A type of malicious code particular to networked computers. It is a self-replicating program
that works its way through a computer network exploiting vulnerable hosts, replicating and causing
whatever damage it was programmed to do.
